AFFIDAVIT OF SERVICE BY U.S. MAIL
Re:

Thomas Rhodes v. Michelle Smith, Warden
Court File No. 20-89

STATE OF MINNESOTA
COUNTY OF RAMSEY

)
) ss.
)

Ann Chalmers, being first duly sworn, deposes and says:
That at the City of St. Paul, County of Ramsey and State of Minnesota, on August 14,
2020, she caused to be served the No Response Letter, by depositing the same in the United
States Mail at said city and state, true and correct copy(ies) thereof, properly enveloped with
prepaid first class postage, and addressed to:
MARK R. BRADFORD
Bassford Remele, P.A.
100 South 5th Street, Ste. 1500
Minneapolis, MN 55402

JULIE JONAS
The Innocence Project of Minnesota
229 19th Avenue South
Minneapolis, MN 55455

SAMUEL L. LOCKNER
Carlson, Caspers, Vandenbaugh, &
Lindquist, P.A.
225 South 6th Street, Ste. 4200
Minneapolis, MN 55402

ALEXANDRA J. OLSON
Carlson, Caspers, Vandenbaugh, &
Lindquist, P.A.
225 South 6th Street, Ste. 4200
Minneapolis, MN 55402
/s/ Ann Chalmers
ANN CHALMERS

Subscribed and sworn to before me on
August 14, 2020.
/s/ Brenda J. Hanson
NOTARY PUBLIC
My Commission Expires Jan. 31, 2025

